                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

 Case Number: 112010002                                                                    Page 1 of 1



         We reviewed NSF awards to several related small businesses 1 under the SBIR program. We
         determined that the businesses had received a large number of SBIR awards through multiple
         agencies. 2 We reviewed financial documentation for two representative NSF awards 3 to one of
         the businesses, but did not identify any questionable expenditures incurred in the performance of
         those awards .

         .ttccorclingly;-fhis case is closecl.




         2




NSF OIG Form 2 (11102)
